Oversight Review        September 28, 2007

 Actions on Reportable Contract Audit Reports
by the Defense Contract Management Agency's
     Northrop Grumman El Segundo Office

          Report No. D-2007-6-009
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
  General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703)
  604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-9808. Ideas and requests can also be mailed to:


                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1015)
                                 Arlington, VA 22202-4704




Acronyms

DCAA                    Defense Contract Audit Agency
DCMA                    Defense Contract Management Agency
FAR                     Federal Acquisition Regulation
IG                      Inspector General
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                            September 28, 2007

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               COMMANDER, NORTHROP GRUMMAN EL SEGUNDO

SUBJECT: Report of Actions on Reportable Contract Audit Reports by the Defense Contract
         Management Agency's Northrop Grumman El Segundo Office
         (Report No. D-2007-6-009)

       We are providing this report for your review and comment. We performed this review in
accordance with DoD Directive 7640.2, which requires that we monitor and evaluate systems in
the Department of Defense for follow-up on contract audits.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Management did not comment on a draft of this report. We request that management provide
comments to the final report that conform to the requirements of DoD Directive 7650.3. We
should receive the management comments by November 28,2007.

        If possible, please send management comments in electronic format (Adobe Acrobat file
only) to the e-mail address cited in the last paragraph ofthis memorandum. Copies of the
management comments must contain the actual signature of the authorizing official. We cannot
accept the / Signed / symbol in place of the actual signature. Matters considered by management
to be exempt from public release should be clearly marked for Inspector General consideration.

        Management comments should indicate concurrence or nonconcurrence with each
finding and recommendation. Comments should describe actions taken or planned in response to
agreed-upon recommendations and provide anticipated dates for completing the actions. State
specific reasons for any nonconcurrence, and propose alternative actions, ifappropriate.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Meredith Long-Morin at (703) 604-8739 (DSN 664-8739), meredith.morin@dodig.mil.



                                          ~~~
                                          Wayne C. Berry
                                           Acting Assistant Inspector General
                                            for Audit Policy and Oversight
Table of Contents
Results in Brief                                               i

Introduction

   Objective                                                   1
   Background                                                  1
   DoD Directive                                               1

Findings

   A. Litigation Settlement                                    2
          DCAA Audit Report                                    2
          Contracting Officer’s Determination                  2
          Legal Opinion                                        3
          Recommendations A                                    3
          Management Comments Required                         3

   B. Adequacy of Negotiation Memoranda                        3
         Requirement for Post-Negotiation Memoranda            4
         Post-Negotiation Memoranda                            4
         Prior Review                                          4
         DCMA Policy on Preparing Post-Negotiation Memoranda   5
         Recommendations B                                     5
         Management Comments Required                          5

Appendixes

   A. Scope and Methodology                                    6
   B. Report Distribution                                      7
                  Actions on Reportable Contract Audit
                    Reports by the Defense Contract
                Management Agency’s Northrop Grumman
                       El Segundo Office

                                                    other potentially unallowable costs and
       Results In Brief                             (2) establish internal control procedures to
                                                    ensure contracting officers prepare adequate
What We Did                                         post-negotiation memoranda that adhere to
                                                    Federal Acquisition Regulation and
We evaluated the actions that contracting           Defense Federal Acquisition Regulation
officials   in   the    Defense    Contract         requirements.       The DCMA Northrop
Management Agency’s (DCMA) Northrop                 Grumman El Segundo Commander should
Grumman El Segundo Office took on                   take appropriate corrective actions to
reportable contract audits conducted by the         address the contracting officer’s failure to
Defense Contract Audit Agency for the               make a determination on the allowability of
semiannual reporting periods ended                  the $615,000 in questioned litigation
March 31, 2005, through March 31, 2006.             settlement costs and the improper agreement
                                                    to exchange the costs for other unallowable
What We Found                                       costs.

The contracting officer failed to address the       Management Comments
allowability of $615,000 in litigation
settlement costs questioned by the auditor.         The DCMA did not comment on a May 31,
Instead of making a proper determination,           2007 draft of this report. We request that
the contracting officer exchanged the costs         the DCMA provide comments on the final
                                                    report by November 28, 2007.
for the contractor not claiming other
unrelated expressly unallowable costs. The
government potentially lost $615,000.

In addition, the contracting officer did not
adequately document in three of six post-
negotiation memoranda the actions on
$400,000 of questioned costs and
$416 million of unresolved costs that the
Defense Contract Audit Agency reported.

What We Recommended
The DCMA Director should (1) publish
policy for contracting officers requiring a                  United States Department of Defense
                                                                 Office of Inspector General
written legal opinion when a contracting                     Project No. D2005-DIP0AI-0228.000
officer’s disagreement with an audit report                       Report No. D-2007-6-009
                                                                     September 28, 2007
involves payment for litigation expenses and

                                                i
                                    Introduction
Objective
Our objective was to review the actions taken by the DCMA Northrop Grumman El Segundo
Office to resolve and disposition contract audit reports prepared by the Defense Contract Audit
Agency (DCAA) for the semiannual reporting periods ended March 31, 2005, through March 31,
2006. See Appendix A for details regarding our scope and methodology and for prior coverage.

Background
Defense Contract Management Agency. DCMA is the Department of Defense (DoD)
Component that works directly with Defense suppliers to help ensure that DoD, Federal, and
allied government supplies and services are delivered on time at projected cost and meet
performance requirements. DCMA, acting through its 50 field offices, resolves and completes
the disposition of most contract audit reports for DoD agencies. This report focuses on DCMA
Northrop Grumman El Segundo.

Defense Contract Audit Agency. DCAA performs contract audits and provides accounting
and financial advisory services to all DoD Components (including DCMA). DCAA issues a
wide variety of reports resulting from several types of audits, such as audits of Government
contractors’ incurred costs, their management and accounting systems, and their compliance with
Cost Accounting Standards.

DoD Directive
DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,” February 12, 1988,
prescribes the responsibilities, reporting requirements, and follow-up procedures on contract
audits. Reportable contract audits generally include all contract audits with findings and
recommendations, except for audits of pre-award proposals. Paragraph 6.5 of the Directive
requires the contracting officer to prepare a post-negotiation memorandum covering the
disposition of all significant audit report findings, including the underlying rationale for such
dispositions. The DoD Inspector General (IG) evaluates the effectiveness of contract audit
follow-up systems implemented at each DoD Component, including DCMA, for compliance
with this directive.




                                                 1
                                                Findings
A. Litigation Settlement
              The contracting officer failed to address the allowability of $615,000 in litigation
              settlement costs that the DCAA had questioned. Instead of making a proper
              determination on these costs, the contracting officer exchanged the costs for the
              contractor not claiming other unrelated expressly unallowable costs. This action
              resulted in the Government potentially losing $615,000.

              DCAA Audit Report. In Audit Report No. 4721-2001A10100001, on the
              contractor’s incurred cost proposal 1 for 2001, DCAA questioned $615,000 in
              litigation settlement costs, which the contractor paid to settle allegations of
              discrimination, harassment, and retaliation based on race. DCAA questioned the
              costs in accordance with FAR 31.201-3(a), which states that a cost is reasonable if, in
              its nature and amount, it does not exceed that which would be incurred by a prudent
              person in the conduct of competitive business. DCAA stated that these amounts
              exceeded a nominal amount. DCAA believed it was unreasonable to expect the
              Government to reimburse significant out-of-court settlements for cases that should be
              tried or arbitrated.

              Contracting Officer’s Determination. As documented in the post-negotiation
              memorandum dated May 5, 2005, the contracting officer reimbursed the costs in
              exchange for the contractor’s agreeing not to claim $1 million in unrelated litigation
              costs. The post-negotiation memorandum stated:

                         DCMA did not sustain DCAA cost questioned amount of $615,000
                         for the above two legal cases because the contractor agreed not to
                         include in their [sic] . . . 2000 final claim $1,000,000 related to the
                         qui tam litigation legal expenses for F/A 18 for years 1995 through
                         2000 if DCMA would not accept DCAA questioned cost of
                         $615,000 for the two discrimination, harassment cases.

              The contracting officer should not have entered into this agreement. The contracting
              officer’s determination should have been based solely on whether the $615,000 is
              allowable in accordance with FAR Subpart 31.2. The agreement to exclude the
              unrelated qui tam 2 costs from the contractor’s incurred cost claim should not have

1
  An incurred cost proposal is a contractor’s claim for direct and indirect costs charged to Government contracts.
DCAA audits the contractor’s incurred cost proposal to determine that the costs are reasonable, allocable, and
allowable as prescribed by the Federal Acquisition Regulation, the Defense Federal Acquisition Regulation
Supplement, and contract provisions.
2
  Qui tam is a provision of the Federal Civil False Claims Act that allows a private citizen to file a suit in the name
of the U.S. Government charging fraud by Government contractors and other entities that receive or use
Government funds, and to share in any money recovered.

                                                           2
           played a role in the contracting officer’s decision to reimburse the $615,000 in
           litigation settlement costs. In a November 7, 2003, memorandum, a DCMA attorney
           had already notified the contracting officer that the $1 million in unrelated qui tam
           costs were expressly unallowable in accordance with FAR 31.205-47(c)(1).

           Legal Opinion. The contracting officer did not obtain a legal opinion on the
           allowability of the $615,000 in litigation settlement costs. DCMA procedures
           recommend, but do not require, that contracting officers obtain a legal opinion. A
           DCMA contracting officer has sole discretion for determining whether a legal opinion
           is necessary before rendering a final determination. However, OMB Circular A-50,
           Paragraphs 6(a) and 8(a)(6) state that, where differences of opinion with the auditor
           involve legal issues, the contracting officer must document the legal basis for the
           determination. The contracting officer should have obtained a legal opinion on the
           allowability of the $615,000 in litigation costs because the settlement involved
           alleged violations of Federal law and allowing the costs may set a precedent for future
           settlements of a similar nature.

Recommendation A.
        A.1. We recommend that the Director of Defense Contract Management Agency
publish policy for contracting officers requiring a written legal opinion when a contracting
officer’s disagreement with an audit report involves payment for litigation expenses and other
potentially unallowable costs.

       A.2.     We recommend that the Commander, Defense Contract Management Agency
Northrop Grumman El Segundo take corrective actions to address the contracting officer’s
failure to properly assess the allowability of $615,000 in questioned litigation settlement costs
and improper exchange with the contractor.

Management Comments Required.
       The Defense Contract Management Agency did not comment on a draft of this report
       dated May 31, 2007. We request that the Defense Contract Management Agency provide
       comments on the final report.



B. Adequacy of Negotiation Memoranda
           Three of the six post-negotiation memoranda reviewed were inadequate and did not
           comply with FAR or DoD Directive 7640.2. The post-negotiation memoranda did
           not adequately address $416 million of unresolved costs in the audit reports, or
           adequately explain why the contracting officer did not uphold $400,000 of the DCAA
           questioned costs. As a result, the memoranda could not adequately protect the
           Government’s interests in the event of a future dispute.

                                                 3
             Requirement for Post-Negotiation Memoranda. When negotiating indirect cost
             rates, FAR 42.705-1(b)(5)(iii) requires contracting officers to prepare a post-
             negotiation memorandum covering the disposition of all significant matters in the
             audit report, along with reasons why any recommendations made by the auditor were
             not followed. Paragraph 6.5 of DoD Directive 7640.2, “Notification of Final
             Disposition of Contract Audit Report,” requires the contracting officer to prepare a
             post-negotiation memorandum covering the disposition of all audit reports.

             Post-Negotiation Memoranda. The post-negotiation memorandum is a critical part
             of the contract file because it serves as the primary means of documenting and
             showing the actions the contracting officer took on contract audit reports. The post-
             negotiation memorandum demonstrates whether the contracting officer’s actions were
             timely and consistent with applicable law and regulations. It also serves to protect
             Government’s interests in the event of future disputes.

             Three of the six post-negotiation memoranda we reviewed at DCMA Northrop
             Grumman El Segundo were inadequate because they did not explain the actions the
             contracting officer took on costs that DCAA questioned or reported as unresolved. 3
             The post-negotiation memorandum for:

                    •   Audit Report No. 4721-2002A10100001 did not adequately explain or
                        support the contracting officer’s acceptance of $234.1 million that DCAA
                        reported as unresolved, or the reasons why the contracting officer
                        reimbursed $288,000 in questioned cafeteria costs.

                    •   Audit Report No. 4721-2001A10100001 did not adequately explain or
                        support the contracting officer’s decision to accept $181.9 million in costs
                        that DCAA reported as unresolved.

                    •   Audit Report No. 4721-2001S10100001-S1 did not adequately explain the
                        reasons why the contracting officer did not sustain $112,000 in questioned
                        employee welfare costs.

             Although we took no exception to negotiation results of the three audits, the
             contracting officer should have adequately documented the negotiation results to
             demonstrate that applicable regulations were followed.

             Prior Review. In April 2007, we issued Report No. D-2007-6-004 citing that 11 of
             13 negotiation memoranda at DCMA Virginia were inadequate. The post-negotiation
             memoranda did not address all the audit findings and recommendations or provide
             enough detail or rationale to support the negotiation position. The lack of detailed


3
  DCAA classifies costs as “unresolved” when its auditors do not receive the results of assist audits in time for
incorporation into the audit report. An assist audit involves one DCAA office performing an audit of selected costs
(for example, corporate, home office, subcontract, or intracompany costs) at the request of another DCAA office.

                                                         4
           post-negotiation memoranda appears to be a deficiency needing DCMA policy
           guidance.

           DCMA Policy on Preparing Post-Negotiation Memoranda. DCMA does not
           have a policy describing the actions that contracting officers are required to take
           when preparing post-negotiation memoranda. DCMA has a guidebook that offers
           suggestions to enhance the performance of the contracting officer; however, the
           contracting officer is not required to follow the suggestions.

Recommendation B.
       B.1.   We recommend that the Director, Defense Contract Management Agency:

              a. Convert the applicable DCMA guidebook processes into formal policy
                 outlining the required steps that contracting officers must take when resolving
                 and completing the disposition of contract audit reports.

              b. Establish internal controls to verify that contracting officers are performing
                 the steps outlined in B.1.a. in accordance with FAR 42.705-1(b)(5)(iii) and
                 DoD Directive 7640.2.

       B.2. We recommend that the Commander, Defense Contract Management Agency
Northrop Grumman El Segundo establish and direct contracting officers to use a checklist of the
requirements found in FAR 42.705-1(b)(5)(iii) and DoD Directive 7640.2.

Management Comments Required.
       The Defense Contract Management Agency did not comment on a draft of this report
       dated May 31, 2007. We request that the Defense Contract Management Agency provide
       comments on the final report.




                                                5
Appendix A. Scope and Methodology
We evaluated the actions that a DCMA Northrop Grumman El Segundo contracting officer took
on 12 contract audit reports during the semiannual reporting periods ended March 31, 2005,
through March 31, 2006. The contracting officer was in the process of setting up the negotiation
position or negotiating for 6 of the 12 contract audit reports. Negotiations were finalized and the
contracting officer completed disposition of the remaining six contract audit reports. Of the 12
reports, 9 were incurred cost reports, 1 was a cost accounting standard noncompliance report, 1
was an operations audit report, and 1 was a cost impact statement report. We reviewed contract
audit reports from the semiannual reporting periods to determine whether:

       •   contract audit follow-up data were accurate;
       •   audit reports were resolved and their disposition completed within the required
           timeframes (6 months for resolution and 12 months for disposition) and, if not,
           whether any delays were justified and documented in the contract file;
       •   contracting officials effectively completed the disposition of all significant audit
           findings and provided a sound rationale for not sustaining any costs that DCAA had
           questioned;
       •   contracting officials assessed penalties on expressly unallowable costs;
       •   disposition actions were adequately documented in accordance with FAR, DoD
           Directive 7640.2 and DCMA policy;
       •   contracting officials are evaluated on their effectiveness in resolving and completing
           the disposition of audit findings on time; and
       •   periodic evaluations of the contract audit follow-up program are conducted to
           ascertain the program’s effectiveness.
We performed this review from June 2005 through April 2007. We suspended the project for
14 months within this timeframe to address other projects.

Use of Computer-Processed Data. DCMA maintains a Web-based eTools contract audit
follow-up database to provide the status of contract audit reports. We did not rely on the
computer-processed data generated by the eTools database. We traced the semiannual report
data from the eTools database to source documents.

Prior Coverage. In the last 5 years, we issued one report with findings similar to those in this
report. DoD IG Report No. D-2007-6-004, “Defense Contract Management Agency Virginia
Actions on Incurred Cost Audit Reports,” April 20, 2007.




                                                 6
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy

Department of the Army
Inspector General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
   Policy Quality Assurance Division Chief, Policy and Plans Directorate
Director, Defense Contract Management Agency
   Commander, Defense Contract Management Agency Northrop Grumman El Segundo
   Director, Contract Business Operations
   Director, Independent Assessment, Internal Review Team

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
   Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
   Committee on Oversight and Government Reform
                                              7
